 Department of Health and Human Services

         OFFICE OF
    INSPECTOR GENERAL




   MENTAL HEALTH SERVICES IN

    NURSING FACILITIES IN THE

OPERATION RESTORE TRUST STATES





                 @ SERVICE$   “Ga
             &
                                ‘f
         e
         $                           JUNE   GIBBS BROWN
         <                           Inspector   General
         5
         %
          %@-­    <


            %dga                              MAY 1996
            >                               OEI-02-91-00861
                       OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandatedby Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services’ (HHS)
programs as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by three OIG operating components: the Office of Audit Services, the      -
Office of Investigations, and the Office of Evaluation and Inspections. The OIG also informs the
Secretary of HHS of program and managementproblems and recommends courses to correct them.

                           OFFICE OF AUDIT SERVICES
The OIG’SOffice of Audit Services (OAS)provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying out
their respective responsibilities and are intended to provide independentassessmentsof HHS
programs and operations in order to reduce waste, abuse, and mismanagementand to promote
economy and efficiency throughout the Department.

                           OFFICE OF INVESTIGATIONS

The OIG’SOffice of Investigations (01) conducts criminal, civil, and administrativeinvestigations
of allegations of wrongdoing in HHS programs or to HHS beneficiaries and of unjust enrichment
by providers. The investigative efforts of 01 lead to crimiml convictions, adniinistrative
sanctions, or civil money penalties. The 01 also oversees State Medicaid fraud control units which
investigate and prosecute fraud and patient abuse in the Medicaid program.

               OFFICE OF EVALUATION AND INSPECTIONS
The OIG’SOffice of Evaluation and Inspections (OEI) conducts short-term managementand
program evaluations (called inspections) that focus on issues of concern to the Department, the
Congress, and the public. The findings and recommendatio~ contained in these inspection reports
generate rapid, accurate, and up-todate information on the efficiency, vulnerability, and
effectivenessof departmental programs.

This report was prepared in the New York Regional Office under the direction of Regional
Inspector General Alan S. Meyer, Ph.D. Project staff included:

New York                                                      HeadQuarters

Renee C, Dunn, P.T. (Project Leader)                          Barbara R. Tedesco
Lucille M. Cop, R.N. (Lead Analyst)

                                                              Medical Review Contractor
                                                              FMAS, Inc., Rockville, MD

To obtain a copy of this report contact the New York Regional Office at (212) 264-1998
 Department of Health and Human Services

         OFFICE OF
    INSPECTOR GENERAL




   MENTAL HEALTH SERVICES IN

    NURSING FACILITIES IN THE

OPERATION RESTORE TRUST STATES





                   @ SERVICE$   “0$
              J+
          $                        v


         #                             JUNE   GIBBS BROWN
         $                             Inspector   General
         s
         %
           %
           ++
                    $
                                                MAY 1996
            %’d~~
             >                                OEI-02-91-00861
              EXECUTIVE                           SUMMARY

PURPOSE:

To describe possible vulnerabi]ities to the Medicare program in the five Operation Restore
Trust States: California, Florida,- Illinois, New York, and Texas in the provision of mental
health services to nursing facility residents.

BACKGROUND:

Events in the past few years have raised concerns about the subject of mental health care
for nursing facility residents: the number of nursing facility residents with mental
disorders has increased, and the expansion of Medicare Part B coverage of these services
has tripled payments. ~eOfflce       of Impector General hasreceived allegation of abusive
practices relating to these services. Because of these concerns, we conducted a study
entitled “Mental Health Services in Nursing Facilities” (OE1-02-91-O0860) to identifi
vulnerabilities in Medicare payments for mental health services provided to residents of
these facilities across the country. The study revealed significant amounts of unnecessary
and questionable services and problems with coding of records.

Since the original study focuses on nursing homes, it falls within the purview of a major
new initiative of the U.S. Department of Health and Human Services. This effort,
Operation Restore Trust (Project ORT) is an anti-fraud initiative designed to target fraud,
waste, and abuse related to home health agencies, nursing homes, and durable medical
equipment suppliers. This initiative targets California, Florida, Illinois, New York, and
Texas, the five States with the highest number of Medicare and Medicaid beneficiaries.

Our original study provided data on a national sample of these services. In the present
report we analyze data from the five Operation Restore Trust States and compare them
with the original findings for the national sample. We report the results of this analysis
here.

FINDINGS:

The Project ORT Stties Were As Likely As The Nation As A Whole To Have
Unnecessary or Questionable Services

In 34 percent of sample records received in the five Project ORT States, Medicare paid
for medically unnecessary Services; this projects to $7 million in Project ORT States.
Thus, in all States, about a third of the records in Project ORT States were for medically
unnecessary services. Of the 169 records received, 57 contained medically unnecessary
services. In 19 records all services were unnecessary; and in 38 some were unnecessary.

In another 17 percent of sample records received in Project ORT States, Medicare paid
for highly questionable services; this projects to $5 million in these States. The 17


                                              i
percent of questionable services (28 of 169 records) in Project ORT States was almost
identical to the 16 percent in all States. In another twenty-two records (13 percent) in the
Project ORT States, documentation was so poor they could not be reviewed.

New York and Florida Appear To Have Greater Than The Average Percentage of
Unnecessary Services For All States

Forty-six percent of the services in New York and 38 percent of the services in Florida
were unnecessary. These figures are somewhat and slightly higher, respectively, than the
32 percent of services in all States that were unnecessary. If we add questiomble cases to
those unnecessary, the results show that Florida is as likely as New York to have either
unnecessary or questionable services.

Improper Coding Was Found in 30 Percent of Project ORT States’ Records

In 30 percent of the 90 cases in the Project ORT States, where there was enough
information to determine what the correct procedure code should be, the code billed
appeared to have been incorrect. This is exactly the same as the 30 percent of incorrectly
coded cases among the 225 cases in all the States.

Psychological Testing and Group l%erapy Were More Likely To Be Unnecessary and
Questionable in Most Project ORT States, Just As In All Sta%es

Psychological testing and group therapy were the services most likely to be unnecessary or
questionable in four of the five Project ORT States, as they were in all States. Also, as in
all States, residents with a mental health diagnosis of some type of dementia, including
Alzheimer’s disease, had higher percentages of unnecessary or questionable services than
those with other diagnoses in three of the Project ORT States. Only New York, however,
follows the same pattern as in all States where clinical psychologists and clinical social
workers were more likely than psychiatrists to have unnecessary services billed to
Medicare. In Florida, psychiatrists were slightly more likely than the psychologists and
social workers to have unnecessary or questionable services; and in Illinois and California,
psychiatrists were about as likely as psychologists and social workers to have such
services.

Among Project ORT States, only in Florida are the “old, old” residents more likely than
the younger ones, as in all States, to have unnecessary and questionable services. The
four remaining Project ORT States actually have less than the average percentage of
unnecessary or questionable services for those 85 and over than in all States.

Factors Which Cause Vulnerabilities In All States Exist in Project ORT States

We found a lack of carrier policies and screens specific to nursing facilities and

difficulty identifying patients’ nursing facilities in the Project ORT States as vulnerabilities

which might jeopardize Medicare payment integrity.




                                                ii
NEXT STEPS:

In our main report, entitled “Mental Health Service in Nursing Facilities” (OEI-02-91-
00860), we make recommendations to help ensure the integrity of Medicare payments
while promoting the delivery of needed care. We also discuss Operation Restore Trust
strategies to follow-up on the issues raised in the report. In this report we provide
detailed information about each of the five Project ORT States in order for the various
players in the States to target audits and reviews.

The above findings for the Project ORT States show that mental health services in nursing
facilities in each of these five States were as likely to be either umecessary or
questiomble as in all States. Each Project ORT State’s profde of problem services,
however, is unique.

These findings point to a series of further actions which appear appropriate for HCFA and
its carriers and relevant State agencies to consider. To assist auditors, investigators,
HCFA, carriers and State agencies in targeting the kinds of problem services particular to
each of the five States, we are providing separate State Profdes in Appendix A.

Each Profile contains a highlight section followed by specific demographic and record data
characteristics. We believe the profiles can help States to target for closer review and
action, those services which appear most vulnerable to inappropriate reimbursement.




                                            ...
                                            111
                        TABLE                OF        CONTENTS

                                                                                                              PAGE
EXECUTIVE SUMMARY

INTRODUCTION             . . . . . . . . . . . . . . . . .    .   ...0..     �   ...**.     �   ******    �   **     1



FINDINGS . . . . . . . . . . . . . . . . . . . . . .          . . . . . . . . . . . . . . . . . . . . . . . .        8


  �   Unnecessary or Questiomble Services             . . .   . . . . . . . . . . . . . . . . . . . . . . . .        8


  �   New York and Florida Exceed The Average                     . . . . . . . . . . . . . . . . . . . . . . .      9


  �   Improper Procedure Codes . .          . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .         10


  �   Characteristics of Questionable Services          . .   . . . . . . . . . . . . . . . . . . . . . . . .       10


      Vulnerabilities   . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .         14


NEXT STEPS . .          . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .         15


                                                                                                       .

APPENDICES . .          . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .



A: Profiles of Project ORT States           . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .          A-1


B: Description ofProcedure          Codes     . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . B-1





                                                      iv
                           INTRODUCTION

PURPOSE:

To describe possible vulnerabilities to the Medicare program in the five Operation Restore
Trust States: California, Florida, Illinois, New York, and Texas in the provision of mental
health services to nursing facility residents.

BACKGROUND:

A number of events in the past few years have brought attention to, and raised concerns
about, the subject of mental health care for nursing facility residents. For example, the
number of nursing facility residents with mental disorders has increased; Medicare Part B
coverage of these services has expanded, resulting in a tripling of payments in the past
two years; the Nursing Home Reform Act was implemented to assure that the mental
health needs of nursing facility residents are properly met; and the Office of Investigations
(01) has had a number of investigations concerning abusive practices relating to these
services.

The number of individuals with psychiatric disorders residing in nursing facilities now
surpasses the number in psychiatric hospitals, according to the American Psychiatric
Association (APA). The reasons for this change are the transfer of many elderly residents
of State and county mental hospitals to nursing facilities, the aging of the population, and
earlier discharges from acute care hospitals. Recent studies have also shown that
psychiatric disorders and emotional, behavioral and cognitive problems are present in a
majority of nursing facility residents. It is difficult to quantify the extent and types of
problems because these conditions are not always the primary reason for
institutionalization, and are not always accurately reported in patients’ medical records.

OperaLt”onRestore i!hst

This inspection was conducted as part of the Department of Health and Human Services
anti-fraud initiative called Operation Restore Trust ( Project ORT.) Operation Restore
Trust is a joint effort by the Office of Inspector General, the Health Care Financing
Administration, and the Administration on Aging designed to coordinate Federal and State
Resources to combat fraud, waste, and abuse related to home health agencies, nursing
homes, and durable medical equipment suppliers. This Operation Restore Trust initiative
targets California, Florida, Illinois, New York, and Texas, the five States with the highest
number of Medicare and Medicaid beneficiaries.

The general findings of our study of national data are contained in a separate report,
entitled “Mental Health Services in Nursing
                                        Fwili&S”        (OEI-C)2-91-00860. ) In this report
we have amlyzed data specific to the five Project ORT States.
The Nursing Home Reform Act

As a part of the Omnibus Budget Reconciliation Act (OBRA) of 1987, Congress passed
the comprehensive Nursing Home Reform Act (PL 100-203). This expanded requirements
that nursing facilities had to meet for Medicare certification. It focused on each resident’s
highest potential for physical, mental and psychosocial well-being with reasomble
accommodation for individual needs and preferences. The Act mandated that all
applicants to Medicaid certified nursing facilities and all nursing facility residents must be
screened to determine whether they have a mental illness or mental retardation, whether
they need active treatment, and whether they need the level of nursing care provided by a
nursing facility. This Preadmission Screening and Annual Resident Review (PASARR) is
the screening process used to determine those nursing facility residents who need both
specialized mental health services and nursing facility care and can stay in a nursing
facility and those residents that need specialized services, but not nursing facility care and
must be transferred to a more appropriate setting unless they have lived in a nursing
facility more than 30 months and choose to stay. The State is responsible for making sure
that the residents get the specialized services they need.

The Nursing Home Reform Act also requires that residents appropriately placed in nursing
facilities receive a full range of services to address their psychosocial needs and
behavioral problems. This range of services is not precisely defined, but nursing facilities
must “conduct standardized, reproducible assessments of each resident’s 17.mctioml
capacity... ” within 14 days of admission, if the patient’s condition changes, and at least
every 12 months to determine the appropriate services. This assessment uses the Resident
Assessment Instrument (RAI) which is a multidimensional, clinically focused evaluation
tool. It provides a basis for identi~ing problems and developing a resident’s plan of care.
The RAI has two parts: the Minimum Data Set (MDS) which is the basis of the resident
assessment process and the Resident Assessment Protocols (lWPS) which identify the
residents’ unique problems. This information is used by the interdisciplinary team and the
resident when developing the resident’s individualized, comprehensive care plan. Seven
of the 18 RAPs specifically address mental health problems commonly found in nursing
facilities such as delirium, cognitive loss/dementia, psychosocial well-being, sad and
anxious moods, behavior problems, psychotropic drug use, and use of physical restraints.

The Nursing Home Reform Act also mandated the development of regulations constraining
the use of psychotropic drugs. The Health Care Financing Administration (HCFA)
regulations state that residents must be free from unnecessary drugs, not be given
antipsychotic drugs except to treat a specific condition, and be given gradual dose
reductions.

Medicare Coverage of Mental Health Services

As with all Part B Medicare services, covered mental health services must be “reasonable
and necessary for the diagnosis or treatment of an illness or injury or to improve the
functioning of a malformed body member, ” Payment is prohibited for medical services



                                              2

that are for prevention, palliation, research or experimentation.   In the absence of national
policy, local carriers determine their own policies,

Services may be provided by different professionals. Medicare defines each of these
specialties for the purposes of coverage. While psychotropic drugs may be prescribed
only by a physician, behavioral and psychotherapeutic approaches may be carried out by a
psychiatrist, a clinical psychologist and/or a clinical social worker.

Clinical psychologists’ and social workers’ services are covered the same as services by a
physician, they may only provide those services they are legally authorized to perform in
their State. Additiomlly, independent clinical social workers may not bill Medicare Part
B for services furnished to an inpatient of a skilled nursing facility that the facility is
required to provide as a Medicare condition of participation,

From 1966 until 1988, Section 1833 (c) of the Social Security Act placed a cap on each
Medicare beneficiary’s psychiatric outpatient costs incurred during a calendar year. Prior
to 1988, Medicare paid no more than $250 annually for covered outpatient treatment of
mental, psychoneurotic or personality disorders. I’his was based on 62.5 percent of a
maximum of $500 in reasomble charges and subject to a further reduction of 20 percent
for co-insurance. Charges for initial diagnostic services, i.e., psychiatric testing and
evaluation to diagnose the patient’s illness, were never subject to this limitation.
Psychiatrists were the primary providers, either directly providing services or supervising
the provision of services by non-physicians, including clinical psychologists and social
workers, and billing them as incident to the psychiatrist’s service.

Medicare Expansion of Mental Health Benefits

The Omnibus Budget Reconciliation Act (OBRA) of 1987 liberalized Medicare Part B
coverage of outpatient psychiatric services. Beginning in 1988, reimbursement for
outpatient psychiatric services increased to $450 annually, based on 62.5 percent of $900
in reasonable charges and a further reduction of 20 percent for co-insurance. In January
 1989, this was increased to $1100 annually, based on 62.5 percent of $2,200 with a 20
percent co-insurance. This legislation also expanded Medicare coverage to include
therapeutic services directly furnished by clinical psychologists, effective July 1988, but
covered services were restricted to those furnished in certain settings such as community
mental health centers (CMHCS).

The OBRA of 1989 further expanded the Part B Medicare psychiatric benefit. It
eliminated the dollar cap on outpatient psychiatric reimbursement, effective January 1,
1990, although the reasomble charges are still reduced by a 62.5 percent limitation and
the 20 percent co-insurance remains in effect. Brief office visits for the sole purpose of
monitoring or changing drug prescriptions and any partial hospitalization services not
furnished by a physician were excluded from the 62.5 percent limitation, effective January
4non    T- ..JA;+;mm
                     ~FF~rtiv- hllv 1990. direct payment to clinical psychologists can be
                                                                                ..




    psychologists were covered for the fwst time but only on an assignment basis, which
    means they agree to accept Medicare’s approved amount.

    Zrends in Ma;...-    m .   -
psychologists were covered for the f~st time but only on an assignment basis, which
means they agree to accept Medicare’s approved amount.

lYends in Medicare Reimbursement

Medicare reimbursement for the five most commonly reimbursed mental health HCPCS
codes for psychiatrists, clinical psychologists and clinical social workers for all Part B
services show a 57 percent increase, ffom $353 million in 1991 to $555.6 million in 1993.
However, these same codes for the same three provider types for services provided in
nursing facilities showed a 244 percent increase, from $20.8 million in 1991 to $71.7
million in 1993. Deftitions of the procedure codes are in Appendix B.

Concerns About Possible Fraud and Abuse

During the years prior to liberalization of the outpatient psychiatric benefit in 1988,
postpayment claims monitoring by HCFA and Medicare carrier staff identified a variety of
abusive and fraudulent physician practices. Among the most common were those
involving nursing home and old age home patients, many often incapable of
communication, whose Medicare accounts were billed for lengthy psychotherapy sessions,
individual and group. In some cases no service was rendered; in many others a brief visit
to check and/or adjust drug prescriptions was the actual service. However, outpatient
psychiatric services were not usually given intense scrutiny by HCFA, presumably
because of the cap on outpatient reimbursement.

After three and one-half years of uncapped Part B psychiatric benefits and three years of
covered clinical psychologist and clinical social worker services, only limited HCFA
review of the nature and extent of these services and the practices of their providers takes
place. One kind of review that carriers have available is called focused medical review
which targets more in-depth medical review efforts at claims for items, services or
providers that present the greatest risk of inappropriate payments. In 1992 and 1993,
there was minimal Medicare carrier Focused Medical Review (FMR) of these services.
However, in one identified instance of carrier focused review of psychological testing, the
review established that the psychological testing conducted in nursing homes by certain
clinical psychologists was excessive and unnecessary. This case resulted in an Office of
Investigations (01) Management Implication Report (MIR).

A HCFA-fi.mded Medicare carrier study in Arkansas has been looking at ancillary services
in nursing facilities. While reviewing beneficiary records, this carrier discovered
problems involving consultation and psychotherapy services provided by non-physicians in
nursing facilities. One problem involved clinical psychologists in group practice billing
for therapy provided by unsupervised non-clinical social workers. After readjudicating
claims from the group which billed for these services from 1988 to early 1992, the carrier
has recovered nearly a quarter million dollars and may assess additioml overpayments.

Cases of suspected fraudulent practices involving outpatient psychiatric services have been
recently identified by carriers and referred to the OIG. An August 1992 OIG/01 Atlanta


                                             4
fraud alert addresses concerns about excessive and fraudulent billing for psychotherapy
services provided by a clinical psychologist. It reports a pattern of aggressive marketing
of psychological services to Medicare beneficiaries in certified retirement and nursing
facilities.

AARP Public Policy Institute Study

A 1994 repo~ “Barriers to Mental Health Services for Nursing Home Residents” was
published by the AARP Public Policy Institute. The goal of the project was to develop
data about the need of nursing home residents for mental health services, the availability
of such services, and the barriers to obtaining needed care.

Policymakers and researchers who contributed to the report agreed that many mentally ill
nursing home residents would benefit from increased attention horn mental health
professionals. These residents often respond well to short-term interventions. They go on
to say that mental health services are scarce in nursing facilities because of low Medicare
and Medicaid reimbursement rates; limits to mental health coverage under these programs;
and difficulties that facilities face in recruiting mental health professiomls to work in
nursing homes,

They concluded that the presence of mental health professionals such as psychiatrists,
psychologists, psychiatric and geriatric nurses, and clinical social workers in nursing
facilities is the key to helping residents with mental disorders. They felt that timely
treatment can forestall further decline and that attracting the necessary mental health
professiomls to nursing facilities would require improved reimbursement rates and fewer
restrictions on services.

METHODOLOGY:

The methodology described here applies to both the separate natioml data study and the
present Project ORT data study. The results of the applications to the present study are
bolded below.

First, we selected a simple random sample of 540 beneficiary claims from the 1993
HCFA Common Working File which meet certain conditions. These 540 claims were k
37 States. The sample consists of beneficiaries who received any one of five of the six
top HCFA common procedure coding system (HCPCS) services: psychiatric diagnostic
interview (90801); psychological testing with written report (90830); individual
psychotherapy, 20 to 30 minutes (90843); individual psychotherapy, 45 to 50 minutes
(90844); and group psychotherapy (90853) provided in a nursing facility. A more detailed
description of these procedure codes is given in Appendix B. Pharmacologic management
and review of medication with no more than minimal medical psychotherapy (90862) was
eliminated from the universe prior to sampling because that procedure code can only be
billed by a medical doctor and not a psychologist or social worker. All claims by a
psychiatrist for an evaluation only were also omitted. Forty three percent or 247
records were in the five Project ORT States.


                                              5
Beneficiary claims in the five Project ORT States were handled by seven Medicare
carriers which we contacted to obtain copies of claims in order to identify the nursing
facility where services were provided. Next, we asked the nursing facilities to send us
copies of the sample patients’ medical records, We requested: the initial admission
evaluation; all mental health documentation during the patient’s entire stay; and for 1993,
all nurse’s notes, medication orders, physicians’ notes, including consultations; and any
patient assessments that were done.

We received 397 (74 percent) of the 540 records requested natiomlly. We received 169
or a slightly smaller percent (68 percent) of the 247 records in the five Project ORT
States. We contracted with FMAS, Inc., a medical review contractor to review the
medical records which did not pass initial screens. The screening was done by either the
inspection team or FMAS, Inc. screeners. The case screening instrument used for
screening all the records was developed by the contractor using clinical screens generally
accepted among mental health care peer review organizations. These screens are used for
reviewing records for all patients requiring mental health care. In developing the
screening instrument the medical review contractor did a literature search and talked to
people who had leadership roles in their professioml organizations. The screening
instrument included variables such as the patient’s diagnosis and treatment (both medical
and psychological), how the mental health treatment was initiated, its goals, indications
for testing, how the tests are used, the existence of a treatment plan, and any changes in
the patient’s status afier treatment.

The f~st listed service in 1993 which was one of the five sampled procedure codes was
screened against the clinical guidelines in the case screening instrument. We call this the
sample service. Cases failing the clinical screens for this f~st service (107 records in all
Project ORT States) were referred to the contractor’s clinical reviewer of the same
provider type as that on the claim for further review of all 1993 mental health services.
Those passing the screens (40 records in all Project ORT States) were not reviewed any
further. The remaining 22 records from all the Project ORT States did not have
enough information for the screeners to make a determination. Of the 107 sent for
further review the medical reviewers determined which services were medically
necessary, which services were medically unnecessary, which services were
questionable.

From the sample of 540 claims nationally, we also selected a random subsample of 120
nursing facilities in which the sample beneficiaries resided, to interview the administrator
by telephone. We were able to contact 102 nursing facility administrators or their
designees who were directors of nursing and/or social workers on their staffs to get their
views on the increased utilization of the mental health benefit, any problems associated
with it, its impact on nursing facility residents, barriers to services and effects of adding
clinical psychologists and clinical social workers as Part B providers. We interviewed 41
nursing facility administrators in the Project ORT States.

We asked all 42 carriers nationally, including eight in the five Project ORT States, for
their policies, procedures and guidelines for mental health services, as well as any related


                                              6
bulletins or provider education materials. We also asked about any cases they were
developing related to fraud and abuse in mental health services in nursing facilities,
whether they conduct Focused Medical Review in this area, and what their thoughts are
on the inspection issues.

Lastly, sixteen carriers were selected purposively from the universe of 42 to include at
least one carrier .from each of the. five project C)RT. States (one State had two carriers
for a total of 6). The other 10 carriers were selected based on their activities in the
mental health area and having a substantial number of claims in our sample. One or more
officials from each of the carriers were asked about documentation of claims, complaints,
monitoring, barriers to services and effects of adding clinical psychologists and clinical
social workers as Part B providers.

The methodology for the larger study included a simple random sample of claims across
the nation. This resulted in relatively small numbers of claims from most of the five
Project ORT States. Numbers of records received out of the total sample in each
Project ORT State ranged from 56 out of 80 in Florida to only 11 out of 17 in Texas.
Numbers received in the other three States ranged from 38 to 27. For this reason,
findings regarding records from individual Project ORT States are reported as
suggestive of possible trends needing further study based on larger samples. All
results from Texas are too small to be suggestive, as are results from other States
when cell sizes are five or less. However, the dollar projections for the unnecessary
and questionable services in all the Project ORT States are statistically significant.
The unnecessary services have a confidence interval of +/- $2.7 million and the
questionable services have a confidence interval of +/- $2.6 million.

Appendix A profiles each of the Project ORT States individually showing highlights of
each State with its individual data. We use the term “problematic” services in Appendix
A and in the text to include both umecessary and questiomble services.

We conducted our review in accordance with the Standardsfor Inspection issued by the
President’s Council on Integrity and Efficiency.




                                            7

An example is the case of a 69 year old male from Illinois with a diagnosis of dementia.
A social worker billed for 69 group therapy sessions from January to July 1993, and a
psychologist billed for 3 testing sessions in March 1993; the patient died in September
1993. The reviewer noted the need for services was not documented in the record and
were questionable since the patient was demented and hard of hearing.

In another twenty-two records (13 percent) in the Project ORT States, documentation was
so poor they could not be reviewed. These twenty-two records did not contain enough
information for the screeners to even refer the records to the clinical reviewers. This is
similar to the 10 percent of the records in all States which did not have enough
information.

New York and Florida Appear TO Have Greater Than The Average Percentage of
Unnecessary Services For All States

Forty-six percent of the services in New York and 38 percent of the services in Florida
were unnecessary, as shown in TABLE I. These figures are somewhat and slightly
higher, respectively, then the 32 percent of services in all States which were unnecessary.

TABLE I shows the total number of records in our sample in each Project ORT State, the
percent of cases that had some or all of their services unnecessary and the percent that had
all of their services questionable. The percents of unnecessary and questionable services
are based on the total number of records received, including those with not enough
information. If we add the questionable cases to those unnecessary, the above results
change only in that Florida becomes as likely as New York to have either unnecessary or
questionable services.

California with 16 percent had a somewhat higher percentage of cases with not enough
information than three other Project ORT States had. While Texas only had eleven cases,
almost half of their cases did not have enough information.

                                         TABLE I

        Percent of Services Which Are Unnecessary or Questionable Bv State


                     CALIFORNIA FLORIDA ILLINOIS              NEw YORK        TEXAS       ALLSTATES

 % Unnecessary           32%           38%         27%           46%           9%              32%
 services
  % Questionable         11%           20%         19%           11%           27%             16%
     services
   Total records         37            56         37             28            11*             397
     received
       * Numbers are too small for percentages to be suggestive.



                                             9

Examples of unnecessary servicesfrom Project ORT States include: An 83 year old
woman from Florida with a diagnosis of Alzheimer’s disease had billings by a
psychologist for the longer therapy sessions beginning in November 1993 and was still
being treated by the psychologist in 1995. The reviewer indicates that the patient did not
have to be seen for such a long time and that the patient is lonely and could have
participated more in social activities to meet her needs. A 73 year old woman from New
York with a diagnosis of dementia and expressive aphasia had group therapy billed by a
psychiatrist at least once a week in 1993. The medical reviewer questioned the need for
this group therapy for a woman with dementia and expressive aphasia.

Improper Coding Was Found in 30 Percent of Project ORT States’ Records

According to the medical reviewers, in 30 percent of the 90 cases in the Project ORT
States, where they had enough information to determine what the correct procedure code
should be, the code billed appeared to have been incorrect. This is the same as the 30
percent of rniscoded cases among the 225 cases in all the States. Among the four Project
ORT States with sufficient numbers of cases, Illinois was least likely (16 percent) to have
improper codes.

In over half (56 percent) of these incorrectly coded cases in the Project ORT States, the
services appeared to be medication management without any documentation of
psychotherapy, but psychotherapy was billed. New York and Florida were more likely
than the other three States to include miscoded cases of this type.

In 16 percent of those with a questionable psychotherapy code, a longer psychotherapy
session was billed either with no documentation to support the longer time or with the
record showing a profile of a patient who could not benefh from a longer session. The
clinical reviewers found it difficult to determine whether brief psychotherapy or longer
psychotherapy was the appropriate code in many of these cases, since the length of the
psychotherapy session was rarely documented. The percent of improper coding of longer
psychotherapy sessions in Project ORT States is exactly the same as the percent in all
States.

An example of billing for psychotherapy when the reviewers thought it should be
medication management is that of an 87 year old man in Florida. He was confused and
disoriented with a diagnosis of anxiety disorder and being treated with both sedatives and
major tranquilizers. The medical reviewers indicated that the visits by the psychiatrist
were appropriate as medication management, given the mental state of the patient, and
that psychotherapy was questionable.

Psychological Testing and Group Therapy Were More Likely To Be Unnecessary and
Questionable in Project ORT States, Just As In All States

Psychological testing and group therapy were the services most likely to be unnecessary or
questionable in four of the five Project ORT States, as they were in all States (see TABLE
II) .


                                             10
In each of the three Project ORT States with more than a handfid of cases, testing and
group therapy services were more likely to be unnecessary or questionable than were
evaluation and psychotherapy services. The percent of unnecessary or questiomble testing
and group therapy services in these three states (Florida, Illinois and New York) ranged
from 70 to 75 percent, not substantially different from the 79 percent in all States.

Conversely, most Project ORT states with enough cases, did not differ greatly from all
States in which 47 percent of evaluation and psychotherapy services were problematic.
Only in Florida, among Project ORT States with enough cases to be suggestive, were
evaluation and individual psychotherapy services relatively close (62 percent to 71
percent) to the percent unnecessary or questionable for testing and group therapy services.
As noted in the larger study of all States, percents of questiomble and umecessary
services as high as 40 percent (or even less) are still highly unacceptable.

                                         TABLE II

                         Unnecessary and questionable      Services
                                   by Tvue of Service


      TYPEOF          CALIFORNIA FLOltlDA           ILLINOIS    NEw YORK         TEXAs         ALL
     SERVICE**                                                                                STATES
  testing & group          2*            7            10               8           ()*          66
       therapy             100%         71%          70%              75%         o%           79%
     evaluation            29            42           24               18         6*          291
  & psychotherapy         48%           62%          42%              56%         67%         47%

       * Numbers are too small for percentages to be suggestive.

       ** Numbers in each cell are the number of records which serves as the
       denominator for calculating the percentage of problematic services. Records
       without enough information are excluded,


An example of unnecessary testing is illustrated in the case of an 82 year old female from
New York with a diagnosis of dementia who is unable to converse: a psychologist billed
for testing on two separate occasions. The medical reviewer indicated that the provider
wrote “no formal evaluation was possible today but will attempt one in a week, ” and that
no tests were performed and that a mini mental status exam was done in 1992 when the
patient was unable to be assessed because of her dementia. The reviewer concluded that
the psychologist’s intervention was not appropriate.




                                              11

Diagnosis

Residents with a mental health diagnosis of some type of dementia, including Alzheirner’s
disease, had higher percentages of umecessary or questiomble services than those with
other diagnoses in all but one (_Illinois)of the Project ORT States with adequate numbers
(see TABLE III below.) These differences parallel the finding for all States combined that
residents with dementia were more likely than those with other diagnoses (58 % to 45%) to
have unnecessary or questiomble services.

Florida and California, in particular, with 74 percent and 69 percent respectively, were
more likely to have such dementia cases than were all States.


                                                  TABLE III

                                  Unnecessary or (Xxxtionable Services
                                              by Diamosis


   DIAGNOSIS** I CALIFORNIA! FLORIDA
   Patients with           16                      27
   some form of           69%                     74%
     dementia
   Patients with           14                      23          20    12         1*            155
  other diagnoses         29%                     52%         55%   58%       100%           45%

       * Numbers are too small for percentages to be suggestive.

       **   Nwbers   ~   each   cell   are   he  of records w~ch serves as the denominator fOr
                                                   n~ber

       calculating the percentage of problematic services. Records without enough information are
       excluded.


Only in Illinois among Project ORT States with sufficient numbers, did residents with other
diagnoses appear to be somewhat more likely than those with dementia (55 percent to 46 percent) to
have unnecessary or questiomble services. Illinois was also the only Project ORT State to include
more non-dementia cases (61 percent) than dementia cases (39 percent). Again, Texas had too few
cases to be suggestive.

Providers

In all States, as shown in TABLE IV below, clinical psychologists and clinical social workers (61
percent) were more likely than psychiatrists (46 percent) to have unnecessary services billed to
Medicare. Looking at the Project ORT targeted States individually, only New York follows this
same pattern. In Florida, psychiatrists were slightly more likely (69 to 61 percent) than the


                                                        12
psychologists and social workers to have umecessary or questiomble services; and in Illinoi
California, psychiatrists were about as likely as psychologists and social workers to have suc
services.


                                             TABLE IV

                               Unnecessary or Chmstionable Services
                                       by TyDe of Provider


   PROVIDERS**I CALIPORNL4! FLORIDA I ILLINOIS I NEWYORK I TEXAS I ALL
     Clinical             16            23            11             14          3*
  psychologists          50%           61%           55%            57%         67%         6
   and clinical
  social workers
   Psychiatrists          15            26            21             7           3*
                         53%           69%           52%            43%         67%         4

       * Numbers are too small for percentages to be suggestive.

       ** Numbers in each cell are the number of records which serves as the
       denominator for calculating the percentage of problematic services. Records
       without enough information are excluded.

We did not include some categories such as nurse practitioners or nurse specialists
because the numbers were very small.

Residents 85 and Older

The “old, old” residents (85 and older) were more likely than younger residents to have
unnecessary or questionable services in all States combined. (See TABLE V) below.
Sixty-two percent of these residents 85 and older had such services compared to 47
percent of those under 85. Among Project ORT States, only in Florida are the old, old
residents more likely than the younger ones (79 percent to 55 percent) to have
umecessary and questionable services. The remaining Project ORT States actually have
less than the average percentage of unnecessary or questiomble services for 85 and over
residents than in all States. New York, with 73 percent of the services of those under 85
and only 45 percent of those 85 and over unnecessary or questiomble, differs most from
other Project ORT States and from all States. Illinois also differs from all States in
having more problematic services in residents under 85 than in those 85 and over.

An example of a case of unnecessary services in New York is that of a 75 year old man
with no mental health diagnosis who had psychological testing billed in May and



                                             13

October. There was no documentation as to why the tests were administered and the
reviewer questioned whether they were standard psychological tests.


                                          TABLE V

                      Unnecessary or Questionable Services bv Ape


      AGE**         CALIFORNIA FLORIDA              ILLINOIS   NEw YORK       TEM          ALLSTATES
    Residents            8             19               10        11           2*             138
    85 & over           50%           79%              30%       45%           50%           62%

    Residents            23            31               24        15            4*           219
    under 85            52%           55%              58%       73%           75%           47%

        * Numbers are too small for percentages to be suggestive.

       ** Numbers in each cell are the number of records which serves as the
       denominator for calculating the percentage of problematic services. Records
       without enough information are excluded,

Factors Which Cause Vulnerabilities      In All States Exist in Project ORT States

Luck of Cam”er Policies and Screens Specific to Nursing Facilities

The five Project ORT States are serviced by 8 carriers, 7 of which are in our sample.
All of the carriers have policies and procedures about outpatient mental health services
but only one has a comprehensive Mental Health Part B manual.

All seven Project ORT carriers have screens or edits relating to Mental Health services
in general, but none have any that relate specifically to Mental Health services in a
nursing facility. At the time of our review, four of the seven carriers had recently
instituted restrictive time frames for testing, evaluation and/or psychotherapy codes. One
carrier in California has an approved listing of tests and the provider must document the
test actually performed on the claim. Three of the carriers are dealing with aberrant
providers by instituting pre or post payment reviews and one has referred two providers
to OIG.

Difficulty Identifying Pa.tz”ents’Nursing Facilities

In the original sample, there were 30 cases where we were umble to identi~ the nursing

facility to request records. Half of these cases were in three Project ORT States. In

many other cases we used a comprehensive nursing home computer file to find the name

of the facility when only an address was available, The mailing address of the

beneficiary on the top of the hard copy claim form often does not include the name of the



                                              14

nursing facility, nor is it listed on the bottom of the form as the facility where services
are rendered. On electronic claims it is even more difficult to identify the nursing
facility where the beneficiary resides. Not being able to determine the facility where the
beneficiary resides makes it is impossible to retrieve the records for review to identi~
unnecessary or questionable services in a nursing facility.

NEXT STEPS:

In our main report, entitled “Mental Health Service in Nursing Facilities” (OEI-02-91-
00860), we make recommendations to help ensure the integrity of Medicare payments
while promoting the delivery of needed care. We also discuss Operation Restore Trust
strategies to follow-up on the issues raised in the report. In this report we provide
detailed information about each of the five Project ORT States in order for the various
players in the States to target audits and reviews.

The above findings for the Project ORT States show that mental health services in
nursing facilities in each of these five States were as likely to be either unnecessary or
questionable as in all States. Each Project ORT State’s profile of problem services,
however, is unique.

These findings point to a series of further actions which appear appropriate for HCFA
and its carriers and relevant State agencies to consider. To assist auditors, investigators,
HCFA, carriers and State agencies in targeting the kinds of problem services particular to
each of the five States, we are providing separate State Profiles in Appendix A.

Each Profile contains a highlight section followed by specific demographic and record
data characteristics. We believe the profiles can help States to target for closer review
and action, those services which appear most vulnerable to inappropriate reimbursement.




                                              15

                             APPENDIX                   A

                        PROFILES OF PROJECT ORT STATES


Introduction: A profile of each of the five Project ORT States is presented below which
includes a highlights section featuring the ways in which the State stands out from other
Project ORT States and/or from all States in the original sample. Separate sections follow
which report the State’s demographics and the characteristics of its sample cases in terms
of numbers and types of records, services, providers, residents, and unnecessary and
questiomble services found, When we refer to “problematic” cases, these incIude both
unnecessary and questiomble services.

Since the numbers of records from most of these States are relatively small, they should
be seen as suggestive rather than indicative of what the characteristics would be if based
on larger samples, In the case of Texas, with only 11 records received, the numbers are
too small to be viewed as suggestive. The latter are reported here with those of the other
States for informatioml purposes only.

The profiles are provided to help HCFA, carriers and appropriate State agencies to target
further actions to address specific types of vulnerabilities suggested by the data.




                                             1

                                       CALIFORNIA


HIGHLIGHTS


California has the largest population of all States, including the Project ORT States.

With only 6 percent, it had the lowest percent (except for Texas) of services for testing or

group therapy, the. two most problematic services in all States.


California was somewhat less likely than all States (50 percent to 61 percent) to have

problematic cases come from psychologists and social workers. The State is more likely

than all States (69 percent to 58 percent) and than all Project ORT States, except Florida,

to have problematic services associated with residents with dementia. The State was less

likely than all States (29 percent to 45 percent) as well as less likely than the other four

Project ORT States to have problematic cases among residents with diagnoses other than

dementia.


DEMOGRAPHICS


       �       The 1990 population was 29,760,021 or 12 percent of the total US
               population.

       �       Eleven percent were 65 or over and 1 percent were 85 or over; one-half of
               one percent of the population resided in nursing homes.

RECORDS


        �      Of 63 records from California in the sample, 37 were received and 26 were
               not. Twenty two facilities did not send a record and 4 facilities were not
               located.

        �      Of 37 records screened, 31 contained adequate information and 6 did not.

SERVICES

        �      Eleven of 37 services were for evaluation.


        �      Two services were for testing.


        �      Thirteen services were for brief psychotherapy.


        �      Ten services were for longer psychotherapy.


        �      One service was for group therapy.





                                             A-2

                                                               CALIFORNIA

PROVIDERS

     �	     Seventeen services were provided bypsycfiatisfi,   16 bypsychologisfi,   3
            bysocial workers and lby another provider.

     �      ,Six providers served more than one patient.

RESIDENTS

     �      Nine of the 37 residents were 85 or older and 28 were under 85.

     �      Sixteen residents had a diagnosis of dementia; 14 did not.

UNNECESSARY OR C)UESTIONABLE SERVICES

     �      Overall

            Sixteen (43 percent) of 37 records received had some medically unnecessary
            or questiomble services.

     �      Type of Service

            Three of 8 evaluations were problematic and 5 were appropriate. (3 had
            inadequate information.)

            One of 2 testings was problematic and 1 was appropriate. (1 had inadequate
            information.)

            Five of 12 brief psychotherapy were problematic and 7 were appropriate. (1
            had inadequate information.)

            Six of 9 longer psychotherapy were problematic and 3 were appropriate.
            (1 had inadequate information.)

            One group therapy service was problematic.

     �      Providers

            Eight of 15 services by psychiatrists were problematic and 7 were
            necessary. (2 had imdequate information.)

            Seven of 14 services by psychologists were problematic and 7 were
            necessary. (2 had inadequate information.)


                                         A-3

                                                                     CALIFORNIA

              One of 2 services by social workers was problematic and the other was
              necessary. (1 had inadequate information.)

              The 1 semiceby an''otier''   provider didnothave    adequate ~omation.

          .   Residents

              Four of residents 85 or older had problematic services and 4 had necessary
              services. (1 had inadequate information.)

               Eleven residents with dementia had unnecessary or questionable services; 4
              residents with other diagnoses had problematic services.

CARRIERS

     �	       California is serviced by two carriers; one in the north and the other in the
              south.

     �        Both carriers are in sample; northern (19 claims) and southern (44 claims.)

     �	       Of 19 records, 13 were received from the northern carrier; of 44 records,
              24 were received from the southern carrier.

     �	       Northern carrier has:
              meetings with Psychological Association quarterly;
              edits for 90801, 43/44 and 53-one service per day per provider;
              assures that test(s) performed must be on claim, extensive listing of
              approved tests; and
              conducted focused medical reviews on 12 providers in 93/94.

     �	       Southern carrier has an:
              edit for testing, no more than 6 hours;
              edit for 90841-62, 36 per 90 days; and
              edit for 90844, 64 per 365 days.




                                           A-4

                                         FLORIDA


HIGHLIGHTS


Florida, with 15 percent of the total population of the five Project ORT States, accounted

for 32 percent (N= 80) of all Project ORT records in the sample. Among Project ORT

States (not counting Texas), Florida had the lowest percent of records for the problematic

testing and group therapy services (14 percent), which was also lower than the average for

all States. The State was more likely than all States combined and other Project ORT

States (again excepting Texas) to have providers (25 percent) who served more than one

patient in the sample.


Florida was more likely than all States (58 percent to 48 percent) to have unnecessary (38

percent) or questionable services (20 percent). Together with New York, Florida was also

more likely than other Project ORT States to have such problematic services. A major

reason for the relatively high percent of problematic services in Florida is the

concentration, as noted above, of providers who served more than one sample patient.

While only 29 percent of providers in the State who served only one patient had

problematic services, 86 percent of multiple-patient providers had problematic services.

Florida, along with New York, were more likely than the other three Project ORT States

to have cases of medication management which appeared to be miscoded as

psychotherapy.


The State was also more likely than all States (62 percent to 47 percent) than other Project

ORT States, except Texas, to have problematic records for evaluation and individual

therapy services. Florida was much more likely than all States (69 percent to 46 percent)

to have problematic records for psychiatrists. The State was also more likely than all

States to have problematic records for residents with dementia (74 percent to 58 percent)

and for residents 85 and older (79 percent to 62 percent).


DEMOGRAPHICS


       �	     The 1990 population was 12,937,926 or 5 percent of the total US
              population.

       �       18 percent are 65 years or older and 2 percent are 85 or older.

       �      0.6 percent reside in nursing homes.

RECORDS

       �	     Of 80 records from Florida, 56 records were received and 24 were not.
              Seventeen facilities did not send record and 7 facilities were not located.




                                           A-5

     �	     Of 56 records screened, 50 had adequate information for a determination to
            be made and 6 did not.

SERVICES

     �      Twenty three of 56 services were screened for evaluation.

     �      Four services were for testing.

     �      Twelve services were brief psychotherapy.

     �      Ten services were for longer psychotherapy.

     �      Seven services were for group therapy.

PROVIDERS

     �	     Twenty eight of 56 services were provided by psychiatrists, 19 by
            psychologists, 8bysocial workers andlby anurse practitioner.

     �      Fourteen providers served more than one patient.

RESIDENTS

     �      Twenty one of the 56 residents were 85 or older and 35 were under 85.

     �      Twenty seven residents had a diagnosis of dementia, twenty three didn’t.

UNNECESSARY OR QUESTIONABLE SERVICES

     �      Overall

            Thirty two (57 percent) of 56 records received had some medically
            unnecessary or questionable services.

     �      Tv~e of Service

            Twelve of 21 evaluations were problematic and 9 were appropriate.        (2 had
            inadequate information.)

            Four of 4 testings were problematic.   (1 had inadequate information.)

            Six of 11 brief psychotherapy were problematic and 5 were appropriate.




                                         A-6

          Eight of 10 longer psychotherapy were problematic and 2 were appropriate.

          Two of 4grouptherapy     were problematic.   (3 did not have adequate
          information.)

     �    Providers

          Eighteen of 26 services by psychiatrists were problematic and 8 were
          appropriate. (2 had inadequate information.)

          Twelve of 17 services by psychologists were problematic and 5 were
          appropriate. (2 had inadequate information.)

          Two of 6 services by social workers were questiomble and 4 were
          appropriate. (2 had inadequate information.)

          The one service by nurse practitioner was appropriate.

          Twelve of 14 providers seeing more than one patient had problematic
          services.

     �    Residents

          Fifteen of 19 residents 85 or over had problematic services and 4 had
          appropriate services. (2 had inadequate information.)

          Twenty residents with dementia had problematic services; twelve with other
          diagnoses had problematic services.

CARRIER

     �	   Florida is serviced by one Medicare Carrier which: has a Comprehensive
          Mental Health Part B Mental Health Manual; screens for 90830, allowing
          up to 4 hours in a 12 month period; screens for 90801, suspending for more
          than 1 in 12 month period; and conducts post pay reviews for testing which
          exceeded acceptable standards.




                                      A-7

                                        ILLINOIS


HIGHLIGHTS

Illinois represents 13percent oftiepopulation   titie Project ORTSWtes butaccounti for
22 percent (N = 55) of the records in the total Project ORT State sample. The State,
just behind New York, had the highest percent (29 percent) of its records for testing and
group therapy services, thetwomost problematic in all States. Butitalso had the lowest
percent (34percent) ofproviders whowere psychologis@ orswial workers, and the
lowest percent (35 percent) of residents with dementia, the most problematic types of
providers and diagnoses in all States.

Illinois not only had the lowest percent of residents with dementia, but it also had the
lowest percent (46 percent) of dementia cases which were found to be problematic both
among Project ORT States and among all States. Similarly, Illinois had the lowest percent
(30 percent) of problematic cases which were 85 and older of all Project ORT States and
of all States (62 percent). As a result, it differed along with New York, from all States
and other Project ORT States in having a higher percent of problematic cases among those
under 85 than among those 85 and over. Illinois was least likely of the five States to have
cases with improper codes.


DEMOGRAPHICS

       �      The 1990 population was 11,430,602 or 4.5 percent of the total US
              population.

       �      13 percent are over 65 years of age and 0.8 percent are 85 or older.

       �      0.8 percent reside in nursing homes.

RECORDS


       �      Of the 55 records from Illinois in the sample, 37 were received and 18
              were not. Fourteen facilities did not send record and 4 facilities were not
              located.

       �      Of 37 records screened, 34 contained adequate information for a
              determination to be made and 3 did not.

SERVICES

       �      Nine of 37 services were for evaluation.




                                          A-8

                                                                  ILLINOIS


     �      Nine services were testing.

     �      Ten services were for brief psychotherapy.

     �      Seven services were for longer psychotherapy.

     �      Two services were for group therapy.

PROVIDERS

     �	     Twenty three services were provided bypsyctiatisti,      llbypsychologish,
            1 by a social worker and 2 by other providers.

     �      Four providers served more than one patient.

RESIDENTS

     �      Ten of 37 residents were 85 or older and 27 were under 85.

     �      Thirteen residents have adiagnosis of dementia, 20 do not.


UNNECESSARY OR QUESTIONABLE SERVICES

     �      Overall

            Seventeen (46 percent) of 37 records reviewed had some medically
            problematic services.

     �      Tv~e of Service

            All 8 evaluations were appropriate. (1 had inadequate information.)

            Five of 7 testing were problematic and 2 were appropriate.        (1 had
            inadequate information.)

            Six of 9 brief psychotherapy were problematic and 3 were appropriate.        (1
            had inadequate information.)

            Four of 7 longer psychotherapy were problematic and 3 were appropriate.

            Two of 2 group therapy were problematic.


                                           A-9

                                                               ILLINOIS



     �     Provider

           Eleven of 21. services.by psychiatrists were problematic and 10 were
           appropriate.

           Five of 10 services by psychologists were unnecessary or questiomble and
           5 were appropriate.

           One service by social worker was problematic.

           Two services by other providers were appropriate.

           Five of 8 providers serving more than one patient had problematic services.

     �     Residents

           Three residents 85 or older had problematic services and 7 had appropriate
           services.

           Six residents with dementia had unnecessary or questionable services; 11
           with other diagnoses had problematic services.

CARRIERS

     �     Illinois is serviced by one carrier.

     �	    It referred 12 providers to fraud unit, overpayments were obtained from 10
           and 2 were referred to IG.

     �	    Effective 9/93, it established a maximum of 10 hours per year allowed for
           testing.




                                         A-10

                                       NEw YORK


HIGHLIGHTS

New York with 20 percent of the population of the Project ORT States had only 13
percent (N = 32) of all of the sample records from all Project ORT States. Only Texas
was lower with only 7 percent of all sample cases. The State was more likely than all
States (31 percent to 18 percent) to have testing and group therapy services. It also had
the highest percent of such services among Project ORT States, though closely followed
by Illinois. The State was most likely of all States and of Project ORT States to have
services provided by psychologists (67 percent) and to have providers characterized as
“other” (18 percent), which means that the exact provider, possibly a group or other kind
of specialist, is not identifiable. New York had no services provided by a social worker.

New York was more likely than all States (46 percent to 32 percent) to have unnecessary
services and more likely than the other four Project ORT states to have them. When
questionable services are included, New York was also more likely than all States (57
percent to 48 percent) to have records with problematic services. It is the only Project
ORT State to parallel the findings for all States that psychologists and social workers were
more likely than psychiatrists to have problematic services. It also appeared more likely
than other Project ORT States and than all States to have problematic services for
residents under 85, and for those with a diagnosis of other than dementia. New York,
along with Florida, were more likely than the other three Project ORT States to have
cases of medication management which appeared to be miscoded as psychotherapy.


DEMOGRAPHICS

       �	     The 1990 population was 17,990,455 or 7 percent of the total US
              population.

       �	     13 percent are over 65 and 1.3 percent are 85 or older; 0.7 percent of the
              States’ population reside in nursing homes.

RECORDS


       �      Of the 32 records from New York, 28 were received and 4 were not.

       �      Of the 28 records screened, 26 contained adequate information and 2 did
              not.
SERVICES

       o      Nine of 28 services were for evaluation




                                           A-n
                                                            NEW YORK

     �       Seven services were for testing.

     �       Seven services were for brief psychotherapy.

     �      �Four   services were for longer psychotherapy.

     �       One service was for group therapy.

PROVIDERS

             Seven services were provided bypsyctiatisfi,     16 bypsychologisb   and5by
             other providers.

             Three providers served more than one patient.

RESIDENTS

             Eleven of 28 residents were 85 or older and 17 were under 85.

             Fourteen residents had a diagnosis of dementia; 12 did not.

UNNECESSARY OR QUESTIONABLE SERVICES

     �       Overall

             Sixteen (57 percent) of 28 records received had some medically unnecessary
             or questiomble services.

     �       Tme of Service

             Six of 8 evaluations were problematic and 2 were necessary. (1 had
             inadequate information).

             Five of 7 testings were problematic and 2 were necessary.

             Two of 6 brief psychotherapy were problematic and 4 were necessary.
             ( 1 had inadequate information.)

             Two of 4 of the longer psychotherapy were problematic and two were
             necessary.

             One group therapy service was problematic.


                                          A-12

                                                           NEW YORK


     �     Provider

           Three of 7 services by psychiatrists were problematic and 4 were necessary.

           Eight of 14 services by psychologists were problematic and 6 were
           necessary. (2 had inadequate information.)

           Five of 5 services by other providers were problematic.

           There were no social workers in the sample.

           All of the providers seeing more than one patient had problematic services.

           Residents

           Five of residents 85 or older had problematic services and 6 had necessary
           services. (2 had inadequate information,)

           Nine residents with dementia had unnecessary or questiomble services; 7
           residents with other diagnoses had problematic services.

CARRIERS

     �     New York is serviced by three Carriers; 1 Upstate and 2 Downstate,

     �	    Two carriers are in the sample, 1 Upstate (4 claims) and 1 Downstate (28
           claims.) All four records not received were from Downstate.

     �     Each Carrier had one record with inadequate documentation.

     �     One Carrier was drafting a new policy for testing code.

     �     One Carrier had additional educatioml efforts in 1995,

     �     One Carrier has a provider on prepayment review for testing code.




                                      A-13

                                         TEXAS2


HIGHLIGHTS

Texas with 19 percent of the population of Project ORT States had only 7 percent (N =
17) of Project ORT sample records. Eleven of these records were received, of which
only 6 had enough information to review. There were no testing or group therapy
services in the 11 records received, Four psychiatrists saw more than one patient, thus
placing Texas highest among the Project ORT States in percent of providers (37 percent)
serving multiple patients. Texas has the lowest percentage of residents 65 or older of all
Project ORT States.

DEMOGRAPHICS

       �      The 1990 population was 16,986,510 or 7 percent of the total US
              population.

       �      10 percent are over 65 years of age and 0.9 percent are over 85; 0.6
              percent of the State’s population reside in nursing homes.

RECORDS

       �      Of 17 records from Texas in the sample, 11 were received and 6 were not.

       �      Of 11 records screened, 6 contained adequate information for a
              determination and 5 did not.

SERVICES

       �      Five of 11 services screened were for evaluation.


       �      Two were for brief psychotherapy.


       �      Four services were for longer psychotherapy.


       �      There were no testing or group therapy services in the sample.





   2	 Since only 11 records were received from Texas, the numbers are reported here
      for information only and should not be taken as even suggestive of what a larger
      sample would have revealed about the State.


                                          A-14
                                                        TEXAS


PROVIDERS

     �      Six of the 11 services were provided bypsychiatristsj   four by psychologists
            and one by a social worker.

     �      Four psychiatrists served more than one patient.

RESIDENTS

            Five of 11 residents were 85 or older and 6 were under 85,

            Five residents had a diagnosis of dementia and one did not.

UNNECESSARY OR C)UESTIONABLE SERVICES

     �      Overall

            Four (36 percent) of 11 records received had some medically unnecessary
            or questionable services.

     �      TYDeof Service

            Two of 5 evaluations were problematic, 2 lacked information and 1 was
            necessary.

            One of the brief psychotherapy services was necessaly and the other lacked
            information.

            Two of 4 longer psychotherapy services were unnecessary or questionable
            and two had inadequate information.

     �      Provider

            Two of 3 services by psychiatrists were unnecessary or questionable and 1
            was appropriate.

            One of 4 services by psychologists was problematic, one was medically
            necessary and the other two had inadequate information.

            The one social worker service was problematic.




                                       A-15

                                                              TEXAS

           Two of the psychiatrists seeing more than one patient had unnecessary or
           questionable services.

     �     Residents

           One of 5 residen~ over 85 had problematic services, one was medically
           necessary and three had inadequate information.

           Three residents with dementia had unnecessary or questionable services;
           one resident with other diagnoses had a problematic service.

CARRIERS

     *     Texas is serviced by one Medicare Carrier.

     �     Concern was expressed about “incident to” issue: a medical record is
           needed to ascertain who actually provided the service.

     �     Carrier has held many educational seminars for the three disciplines and
           provided them with handouts.




                                      A-16




              —
                         APPENDIX                    B

                  DESCRIFITON OF PROCEDURE CODES

90801     Psychiatric diagnostic interview, examination including history, mental
         ~status, or disposition (may include family or other sources, ordering and
          medical interpretation of laboratory, or other medical diagnostic studies in
          lieu of the patient).

90830     Psychological testing by physician, with written report, per hour.

90843	    Individual medical psychotherapy by a physician with continuing medical
          diagnostic evaluation, and drug management when indicated, including
          insight oriented behavior modifying or supportive psychotherapy,
          approximately 20 to 30 minutes.

90844    Individual psychotherapy approximately 45 to 50 minutes.

90853	   Group medical psychotherapy (other than of multiple family group) by a
         physician, with continuing medical diagnostic evaluation and drug
         mamgement when indicated.




                                      B-1

